February 2006
Report No. 06-008


Consideration of Safety and Soundness
Examination Results and Other
Relevant Information in the FDIC’s
Risk-Related Premium System
                                                                                                      Report No. 06-008
                                                                                                         February 2006


                                 Consideration of Safety and Soundness Examination
                                 Results and Other Relevant Information in the FDIC’s
                                 Risk-Related Premium System
Background and                   Results of Audit
Purpose of Audit
                                 We found that the RRPS-assigned Supervisory Subgroups are adequately tied to the
To assess deposit                results of examinations by the primary federal regulators and to other information
insurance premiums on            relevant to the institutions’ financial condition. The FDIC adequately reviewed the
financial institutions, the      appropriateness of the Supervisory Subgroups assigned by the RRPS and maintained
FDIC uses the Risk-              adequate support for its decisions.
Related Premium
System (RRPS). The               Capital Group assignments, however, are based solely on an institution’s financial
FDIC places each                 reports unless an institution appeals its assessment. An institution with a poor safety and
institution into one of          soundness capital component rating can be assigned by the RRPS to the best Capital
nine assessment risk             Group if it meets the definition of well capitalized in its financial reports as of the cutoff
classifications using a          date for the assessment period. We identified 28 institutions in one assessment period
two-step process based           that paid lower insurance premiums because the institutions met the capital ratio
first on capital ratios (the     requirements for a well capitalized institution as set forth in FDIC Rules and Regulations
Capital Group                    Part 327, even though examiners viewed capital as deficient with substantial probability
assignment) and then on          of loss to the deposit insurance funds.
safety and soundness
examination results and          We also found that the FDIC has performed analyses related to various aspects of
other pertinent                  deposit insurance, but has not updated its analysis supporting the basis points used to
information (the                 calculate premiums and assigned to the assessment risk classifications in the RRPS
Supervisory Subgroup             matrix. The FDIC’s analysis was limited to bank failures from 1988 to 1992 and did not
assignment).                     include thrift failures due to significant changes in the supervision of the thrift industry.
                                 Since that time, the banking and supervisory environment has changed significantly,
This audit reviewed the          including the establishment of Prompt Corrective Action requirements. Consequently,
FDIC’s consideration of          the assessment rates for the deposit insurance funds may not be representative of trends
risk in determining the          based on more recent institution failures.
insurance premiums paid
to the Bank Insurance            Recommendations and Management Response
Fund (BIF) and the
Savings Association              The report recommends that the FDIC pursue regulatory and procedural revisions to
Insurance Fund (SAIF).           permit Capital Group adjustments when capital is impaired. The FDIC partially
                                 concurred with the recommendation and is considering improvements to the assessment
The audit objective was          system that would reflect changes in an institution’s capital levels and CAMELS
to determine whether the         composite ratings more frequently than semiannually. The FDIC’s comments are
RRPS is adequately tied          responsive to the recommendation, and we consider it resolved.
to the results of
examinations by the              However, a change to the assessment regulations may still be warranted that would
primary federal                  provide the FDIC with the discretion to reclassify an institution’s Capital Group for
regulators and to other          RRPS purposes when capital is considered impaired. Therefore, we are highlighting this
information relevant to          matter for the Board’s consideration as it implements changes to the assessment system
the institutions’ financial      pursuant to deposit insurance reform legislation.
condition.
                                 The report also recommends that the FDIC update the analysis supporting the basis
                                 points in the assessment rate matrix, present the updated analysis to the FDIC Board
To view the full report, go to   with recommendations for assessment rates, and establish a schedule for periodically
www.fdicig.gov/2006reports       updating the assessment rate analysis. The FDIC concurred with the recommendations,
asp
                                 which we consider resolved.
                                 TABLE OF CONTENTS

BACKGROUND                                                                      1

RESULTS OF AUDIT                                                                3

FINDINGS AND RECOMMENDATIONS                                                   4

FINDING A: SUPERVISORY SUBGROUPS SUPPORTED BY
           EXAMINATION RESULTS AND OTHER RELEVANT
           INFORMATION                                                          4

FINDING B: CONSIDERATION OF DSC ANALYSIS AND CONCERNS
           IN CAPITAL GROUP ASSIGNMENTS                                         6

RECOMMENDATION                                                                 10

CORPORATION COMMENTS AND OIG EVALUATION                                        10

FINDING C: SUPPORTING ANALYSIS FOR MATRIX BASIS POINTS                         11

RECOMMENDATIONS                                                                14

CORPORATION COMMENTS AND OIG EVALUATION                                        15

APPENDIXES
APPENDIX I:   OBJECTIVE, SCOPE, AND METHODOLOGY                                16
APPENDIX II:  ADOPTION OF THE RISK ASSESSMENT MATRIX                           19
APPENDIX III: ASSESSMENT RISK CLASSIFICATION                                   21
APPENDIX IV:  CHRONOLOGY OF SIGNIFICANT EVENTS FOR
              INSTITUTIONS                                                     24
APPENDIX V:   GLOSSARY                                                         27
APPENDIX VI: CORPORATION COMMENTS                                              31
APPENDIX VII: MANAGEMENT RESPONSE TO
              RECOMMENDATIONS                                                  36

TABLES
Table 1: Institutions Insured by the BIF and SAIF                               2
Table 2: Institutions Classified as Group 1C with Capital Rated 4 or 5          8
Table 3: Assessment Risk Classifications for Failed Institutions in the Four
         RRPS Periods Prior to Failure                                          9
Table 4: Rate Schedule for the January 1, 2005 Assessment Period               11
Table 5: Rate Schedule for the January 1, 1993 Assessment Period               20
Table 6: Capital Group Descriptions                                            21
Table 7: Supervisory Subgroup Descriptions                                     23
Federal Deposit Insurance Corporation                                                                   Office of Audits
801 17th St., NW Washington, DC 20434                                                      Office of Inspector General


DATE:                             February 17, 2006

MEMORANDUM TO: Arthur J. Murton, Director
               Division of Insurance and Research

                                   Christopher J. Spoth, Acting Director
                                   Division of Supervision and Consumer Protection



FROM:                              Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                   Assistant Inspector General for Audits

SUBJECT:                           Consideration of Safety and Soundness Examination Results and Other
                                   Relevant Information in the FDIC’s Risk-Related Premium System
                                   (Report No. 06-008)


This report presents the results of our audit of the FDIC’s consideration of risk in determining
the deposit insurance premiums paid to the Bank Insurance Fund (BIF) and the Savings
Association Insurance Fund (SAIF). To assess semiannual premiums on financial institutions,
the FDIC uses the Risk-Related Premium System (RRPS) and considers capital levels, safety and
soundness examination results, and other pertinent information to assign insured institutions to
one of three Capital Groups and to one of three Supervisory Subgroups for the purpose of
determining an insurance assessment risk classification.1 The audit objective was to determine
whether the insurance assessment system is adequately tied to the results of examinations of
financial institutions by the primary federal regulators and to other information relevant to the
institutions’ financial condition. Appendix I of this report discusses our objective, scope, and
methodology in detail.


BACKGROUND

Section 302(a) of the FDIC Improvement Act of 1991 (FDICIA) required the FDIC’s Board of
Directors (Board) to establish a risk-based assessment system.2 In September 1992, the Board
amended its regulations on assessments to comply with FDICIA and to provide for a transition
from a uniform rate to a risk-based insurance assessment system.3 The FDIC envisioned a
system that would provide a financial incentive to all FDIC-insured institutions to improve or
maintain a safe and sound status and would not burden weaker institutions. Details on the
Board’s adoption of the multi-tiered risk-based system for assigning assessment risk
classifications are in Appendix II. The Financial Institutions Reform, Recovery, and

1
  Appendix III describes how the Capital Groups and Supervisory Subgroups are determined.
2
  See the Glossary in Appendix V for FDICIA’s definition of a risk-based assessment system.
3
  FDICIA, Section 302(f), authorized the FDIC to promulgate regulations governing the transition from the
assessment system in effect at the date of the statute’s enactment to the risk-based assessment system.
Enforcement Act of 1989 established specific designated reserve ratios for the BIF and SAIF.
Under FDICIA, the Board may set higher ratios in certain circumstances.

Part 327 of the FDIC Rules and Regulations (12 Code of Federal Regulations, Part 327)
established the risk-based assessment system and addresses the determination of the annual
assessment risk classifications based on capital and supervisory risk factors and the process for
an institution to request a review of its assessment risk classification. FDIC Circular 4700.1,
Risk-Related Premium System, addresses Division of Supervision and Consumer Protection
(DSC) regional office responsibilities for reviews of the Supervisory Subgroup assignments, Call
Report amendments, and financial institution requests for a review of the assigned Capital Group
or Supervisory Subgroup. The circular also designates the Division of Insurance and Research
(DIR) as responsible for assigning an institution’s Capital Group and establishes the coordination
of the assessment process by DSC and DIR.

Table 1 shows the results of the classification of 9,031 financial institutions for the first
semiannual assessment period in 2005.4 For that period, a total of 617 institutions paid
premiums (shown in the shaded sections of the table).

                       Table 1: Institutions Insured by the BIF and SAIF
                                                     Supervisory Subgroup
                              Capital Group             A        B      C
                           1. Well Capitalized
                          Assessment Rate (bps)a         0        3    17
                          Number of Institutions      8,414     462    77
                          Percent of Institutionsb    93%       5%     1%
                            Assets (in billions)    $9,619.8 $ 93.1 $28.1
                        2. Adequately Capitalized
                         Assessment Rate (bps )a         3       10    24
                          Number of Institutions        61        3     8
                                                  b
                          Percent of Institutions      1%       0%     0%
                            Assets (in billions)    $ 15.4 $ 0.6 $ 1.3
                           3. Undercapitalized
                          Assessment Rate (bps)a        10       24    27
                          Number of Institutions         2        0     4
                                                  b
                          Percent of Institutions      0%       0%     0%
                            Assets (in billions)    $      0.3 $ 0.0 $ 1.4
                       Source: OIG analysis based on the January 1, 2005 assessment period
                       documentation provided by DIR.
                        a
                          The assessment rate is shown in basis points (bps), which are discussed
                        in detail in Finding C and are shown in Table 4 on page 11 of this report.
                        b
                          The percentage is based on the 9,031 institutions.




4
  For the first semiannual assessment period, the supervisory cutoff date is September 30th of the previous year. For
the second semiannual assessment period, the supervisory cutoff date is March 31st of the current year.


                                                         2
RESULTS OF AUDIT

We found that the RRPS-assigned Supervisory Subgroups are adequately tied to the results of
examinations by the primary federal regulators and other information relevant to the institutions’
financial condition. However, the Capital Group assignments are based solely on an institution’s
financial reports5 and do not always reflect the primary federal regulator’s or DSC’s analysis and
concerns. As a result, in isolated cases, insurance premiums may not be entirely reflective of the
risk or unique circumstances at an institution when the assessment risk classifications are
determined.

Based on our review of available information for 50 financial institutions in various DSC regions
and interviews with regional office case managers, we concluded that DSC had adequately
reviewed the RRPS-assigned Supervisory Subgroups and made appropriate adjustments based on
the results, maintaining adequate support for its decisions (Finding A).

Unless an institution appeals its assessment, the Capital Group assignments are based solely on
an institution’s financial reports and do not always reflect supervisory analysis and concerns.
Therefore, an institution with a poor safety and soundness examination capital component rating
can be assigned by the RRPS to Capital Group 1 (the well capitalized group) if the institution
meets the definition of well capitalized in its financial reports as of the supervisory cutoff date
for the assessment period. As a result, for the January 1, 2005 assessment period, 28 financial
institutions, with assets totaling $15.5 billion, paid insurance premiums that are commensurate
with a well capitalized institution, even though examiners viewed capital as deficient at these
institutions with a substantial probability of loss to the BIF or SAIF (Finding B).

Additionally, we found that the FDIC has performed analyses related to various aspects of deposit
insurance but has not updated its analysis supporting the basis points used to calculate premiums and
assigned to the assessment risk classifications in the RRPS matrix. The analysis was limited to
bank failures over a 5-year period, from 1988 to 1992, and did not include thrift failures due to
significant changes in the supervision of the thrift industry. Since that time, the banking and
supervisory environment has changed significantly, including the establishment of Prompt
Corrective Action (PCA) requirements by FDICIA, which became effective in December 1992.
Consequently, the assessment rates for the deposit insurance funds may not be representative of
trends based on more recent institution failures (Finding C).




5
 For the purposes of this report, “financial reports” are the Reports of Condition and Income (Call Reports), Reports
of Assets and Liabilities of U.S. Branches and Agencies of Foreign Banks, or Thrift Financial Reports.


                                                         3
FINDINGS AND RECOMMENDATIONS

FINDING A: SUPERVISORY SUBGROUPS SUPPORTED BY EXAMINATION
RESULTS AND OTHER RELEVANT INFORMATION

We found that DSC adequately reviewed the appropriateness of the Supervisory Subgroups
assigned by the RRPS for the 50 institutions included in our sample and made appropriate
adjustments based on the results. Specifically, we found adequate support for the case managers’
reviews and decisions for the Supervisory Subgroup assignments. We concluded that the
Supervisory Subgroups were adequately tied to the results of examinations by the primary
federal regulators and to other information relevant to the financial condition of the institutions.

The FDIC’s RRPS Process and Related Responsibilities

DIR coordinates the insurance assessment process and maintains the financial documentation for
the institutions recorded in RRPS. Division of Information Technology (DIT) analysts process
data from internal and external sources into RRPS. Internal sources include DSC examination
results. External sources include the institutions’ financial reports as well as Reports of
Examination (ROE) from the Office of the Comptroller of the Currency (OCC), the Federal
Reserve Board (FRB), and the Office of Thrift Supervision (OTS), which provide CAMELS
component and composite ratings (see Appendix V).

The reconcilement process begins shortly after the supervisory cutoff date for determining the
Supervisory Subgroup assignments. RRPS generates both a universe list and a reconcilement list
for DSC regional reviewers (case managers or designated field personnel). The universe list
consists of all active institutions. The reconcilement list consists of institutions for which FDIC
Circular 4700.1 requires a review of the preliminary Supervisory Subgroup assignments during
the reconcilement period, including situations in which the SCOR6 composite rating indicates
potential disagreement with the Supervisory Subgroup assignment and/or the current FDIC
CAMELS composite rating disagrees with the preliminary Supervisory Subgroup determined by
the primary federal regulator’s composite rating. DSC is to analyze the institutions’ condition as
of the supervisory cutoff date, using information available during the reconcilement period, to
determine the final Supervisory Subgroup assignments.

The RRPS assigns a preliminary Supervisory Subgroup based on the most recent CAMELS
composite rating in the primary regulator’s ROE as of the supervisory cutoff date. However, an
institution’s condition can change subsequent to the CAMELS rating assignment. Therefore,
DSC reviewers may revise the Supervisory Subgroup assignments if warranted. DSC reviewers
communicate with the primary federal regulator prior to any final decision to change an
institution’s Supervisory Subgroup assignment.7 After DSC reviewers have validated the
assignments, the DSC Regional Director approves the universe and reconcilement lists. DSC

6
  SCOR is the Statistical CAMELS Off-Site Rating (SCOR) model. SCOR uses the balance-sheet and income-
statement information that banks are required to report quarterly to their primary federal supervisor (Call Reports).
The SCOR model attempts to predict CAMELS ratings by relating 12 financial ratios to each bank’s future
composite rating (similar models are developed for the component ratings).
7
  Appendix III describes the factors to be considered before changing a Supervisory Subgroup.


                                                          4
regional offices then notify DIR that the reconciliation process is completed and Supervisory
Subgroup assignments are final.

The Capital Group assignments in RRPS are based on the capital ratios from the institutions’
financial reports. An institution’s Capital Group is automatically assigned by RRPS based on
capital definitions in Part 327 of the FDIC Rules and Regulations.8

DSC’s Review of Supervisory Subgroups

We judgmentally selected 25 FDIC-insured financial institutions from the Dallas Regional
Office reconcilement lists for the January 1, 2004; July 1, 2004; and January 1, 2005 assessment
periods. We interviewed four Dallas Regional Office case managers, who were assigned to 1 or
more of the 25 institutions in our sample, concerning RRPS procedures, assignments of risk
classifications, and general information about the RRPS. Additionally, we reviewed relevant
ROEs to determine whether weaknesses had been noted that should have been considered in the
insurance assessment ratings. We also reviewed problem bank memorandums, bank
correspondence files maintained by DSC case managers, and bank rating change memorandums
to determine whether the issues noted had been considered, or should have been considered, in
the assessment rating.

Documentation we reviewed indicated that DSC had appropriately assessed the institutions’
conditions and ratings. We found evidence that DSC reviewers communicated with primary
federal regulators prior to a final decision on an institution’s Supervisory Subgroup assignment.
We also found adequate support for the case managers’ reviews and decisions for the
Supervisory Subgroup assignments.

Additionally, we analyzed another sample of 25 FDIC-insured financial institutions from the
other 5 DSC regional offices to compare examination results and capital ratios with those in
RRPS. We concluded that the Supervisory Subgroups were adequately tied to the results of
examinations by the primary federal regulators and to other information relevant to the financial
condition of the institutions.




8
  The definitions of Capital Group categories in Part 327, Assessments, of the FDIC Rules and Regulations differ
from the definitions of capital categories in Part 325, Capital Maintenance. Part 327 defines Capital Group
categories for insurance assessment purposes exclusively on the basis of capital ratios reported in an institution’s
financial reports except for insured branches of foreign institutions, which must meet certain other requirements.
Part 325 defines an institution’s capital category for certain purposes other than insurance assessment. Part 325
defines capital categories by ratios similar to those defined in Part 327; however, a number of significant differences
exist. For example, under Part 325 an institution is not designated as “well capitalized” if the institution is subject to
a written agreement, regardless of the capital ratio.


                                                            5
FINDING B: CONSIDERATION OF DSC ANALYSIS AND CONCERNS IN CAPITAL
GROUP ASSIGNMENTS

Unless an institution appeals its assessment, the Capital Group assignments are based solely on
institutions’ financial reports and do not always reflect supervisory analysis and concerns.
Therefore, an institution that has received a safety and soundness examination capital component
rating of 4 or 5 can be assigned to Capital Group 1, the highest Capital Group rating, if the
institution meets the capital ratio requirements for a well capitalized institution as set forth in
FDIC Rules and Regulations Part 327. Consequently, an institution would pay a lower insurance
premium based on the capital ratios from the institution’s financial reports, even if the primary
regulator’s most recent examination as of the supervisory cutoff date showed that capital was
deficient and poorly rated. This is particularly a concern where the institution also receives a
poor composite rating.

Capital Considerations for Insurance Assessments

The purposes of capital are to absorb losses, promote public confidence, and provide protection
to depositors and the insurance funds. Part 327 of the FDIC Rules and Regulations establishes
the capital rules applicable to RRPS for insurance assessment purposes. Part 325 of the FDIC
Rules and Regulations establishes the criteria and standards the FDIC uses in calculating
minimum leverage capital requirements, determining capital adequacy, and determining whether
an institution is subject to PCA provisions. Insured institutions are expected to maintain capital
commensurate with the nature and extent of their risks.

FDIC Directive 4700.1 contains procedures for the FDIC’s RRPS and states that DIR is
responsible for assigning the institution's Capital Group which, along with the Supervisory
Subgroup, is one of the two primary variables considered in determining an institution's
insurance premium. In addition, the directive states that Part 327 defines Capital Group
categories for insurance assessment purposes “exclusively on the basis of capital ratios reported
in an institution’s Call Report” and that “a number of significant differences exist” between the
definition of capital categories for Capital Group purposes and the definition of capital categories
for examination and supervisory purposes. Specifically, the directive does not allow for an
adjustment to the RRPS Capital Group assignment based on examination results or other
supervisory considerations.

In contrast to the RRPS capital rules set forth in Part 327, the PCA provisions of the Federal
Deposit Insurance (FDI) Act permit the federal banking supervisor to treat an institution as if it
were in the next lower capital category in certain cases. PCA requires federal regulators to
assign financial institutions to one of five categories on the basis of their capital levels and
mandates increasingly severe restrictions and supervisory actions as an institution’s capital
condition deteriorates. Section 325.103(b)(1)(iv) states that an institution is not designated as
well capitalized if it is subject to a written agreement, order (such as a Cease and Desist order),
capital directive, or prompt corrective action directive issued by the FDIC pursuant to sections 8
and 38 of the FDI Act, or any regulation thereunder, to meet and maintain a specific capital level
for any capital measure, regardless of the capital ratios. In accordance with PCA, the federal
banking supervisor may also treat an institution as if it were in the next lower capital category in



                                                 6
certain cases when the institution is deemed to be in an unsafe or unsound condition or is
engaging in unsafe or unsound practices.

Comparison of Objective and Subjective Factors

In adopting a multi-tiered matrix for assessing insurance premiums, the Board decided to apply a
combination of objective and subjective factors, after concluding that neither one alone could be
relied upon to present a complete picture of an institution's condition. Additionally, the Board
recognized the value of objective measures. A desirable attribute of a risk-based premium
system should be to give weak institutions an immediate financial reward for improving their
condition by a quantitative, defined indicator. Thus, the Board decided that this financial reward
would be provided by a system that bases premiums, in part, on the institutions' capital ratios
from their financial reports. Weak institutions would have the incentive to reduce their deposit
insurance premiums by meeting specific capital-ratio standards. Also, greater capital increases
an institution’s cushion against loss and increases the owners' stake in a sound operation.
Therefore, the Board believed that capital ratios would play an important role in a risk-based
premium system. (See Appendix II for a detailed discussion of the Board’s decision.)

FDIC Rules and Regulations, Section 327.4, addresses the relationship of the Capital Group and
Supervisory Subgroup assignments for assessment risk classifications. Section 327.4(a)(1) sets
the acceptable capital ratios for each assigned Capital Group (1, 2, or 3) based on the institutions’
financial reports. As a result, unlike the Supervisory Subgroup assignment discussed previously,
there is no opportunity for DSC or DIR to consider an institution’s other risk areas, such as its
assets, management, or operations. Thus, except in the case of an assessment appeal, neither
DSC nor DIR have the authority to reclassify the Capital Group for an institution.

Comparison of CAMELS Capital Component and Composite Ratings

From the universe of 9,031 insured financial institutions for the January 1, 2005 assessment
period (see Table 1), 77 institutions were classified in the RRPS as Group 1C (1 represents the
Capital Group, and C represents the Supervisory Subgroup). Of these 77 institutions, 28
institutions, with assets totaling $15.5 billion, had CAMELS capital component9 and composite10
ratings of 4 or 5, but their capital ratios met the well capitalized requirements, for RRPS
purposes, for Capital Group 1. Institutions classified as Group 1C pay 17 basis points in
insurance premiums on their assessable deposits compared to institutions rated lower that pay


9
  A capital component rating of 4 indicates a deficient level of capital such that the viability of the institution may be
threatened. A capital component rating of 5 indicates a critically deficient level of capital such that the institution's
viability is threatened. Immediate assistance from shareholders or other external sources of financial support is
required.
10
   Financial institutions with a composite rating of 4 generally exhibit unsafe and unsound practices or conditions.
The weaknesses and problems are not being satisfactorily addressed or resolved by the board of directors and
management. Institutions in this group pose a risk to the deposit insurance fund, and failure is a distinct possibility.
Financial institutions with a composite rating of 5 exhibit extremely unsafe and unsound practices or conditions.
The volume and severity of problems are beyond management's ability or willingness to control or correct.
Immediate outside financial or other assistance is needed in order for the financial institution to be viable.
Institutions in this group pose a significant risk to the deposit insurance fund, and failure is highly probable.


                                                            7
either 24 or 27 basis points. Table 2 shows the capital component and CAMELS composite
ratings of the 28 institutions.

                   Table 2: Institutions Classified as Group 1C with Capital
                   Rated 4 or 5
                      Capital      CAMELS         Number         Total
                    Component Composite               of         Assets
                      Rating         Rating      Institutions (Thousands)
                         4             4                   23   $2,073,691
                       4 or 5          5                    5 $13,400,044
                       Total                               28 $15,473,735
                    Source: OIG analysis of documentation provided by DIR for the
                    January 1, 2005 assessment period.

Of these 28 institutions, 20 institutions, with assets totaling $14.7 billion, were subject to
enforcement actions that addressed capital-related matters yet were considered well capitalized
for insurance premium purposes. The Board’s stated intent in tying the RRPS Capital Groups
directly to an institution’s capital ratios was to provide an incentive (a reduced insurance
premium) for increasing capital. However, the institutions classified as Group 1C are not
motivated in this manner because they are already considered well capitalized for RRPS
purposes, and they pay the lowest insurance premiums for institutions in their Supervisory
Subgroup.

We reviewed the ROE comments on capital for three of the institutions, included in Table 2, with
capital rated 4 or 5. The ROEs were applicable to the January 1, 2005 assessment period. The
ROE for one institution stated, “Capital is deficient in light of the institution's risk profile
threatening its viability.” For another institution, the ROE reported, “Capital [was]
unsatisfactory in relation to the institution’s risk profile. Critical deficiencies in management,
asset quality and earnings are a constant drain on the capital account, and the current capital level
cannot support the myriad of risk exposures that …[the] bank faces; risks such as credit,
operational, legal, reputation, and liquidity.” For a third institution, the ROE stated, “Capital is
critically inadequate. The hazardous actions of former management have caused the distressed
financial condition of the institution. Unsatisfactory asset quality has caused a substantial
operating loss that has eroded capital.” Additional details on these institutions are provided in
Appendix IV.

The FDIC OIG conducted material loss reviews for five institutions that failed from 1998
through 2003. Table 3 on the next page shows these institutions’ RRPS risk classification in the
four semiannual assessment periods prior to failure and the estimated costs to the BIF and SAIF.




                                                   8
Table 3: Assessment Risk Classifications for Failed Institutions in the Four RRPS Periods
Prior to Failure
                               Risk Classification
                              (from earlier to later        Date of      Loss to Insurance
          Institution             RRPS periods)            Failure         Funds $(000s)
           BestBank          2C 3B 1B             2B        7/23/98                $221,454
   Pacific Thrift and Loan   2C 3C 3C             3C       11/22/99                 $42,049
           Company
    Superior Bank, FSB*      1B 2C 2C             3C        7/27/01                $338,694
     Connecticut Bank of     1B 1B 1B             2C        6/26/02                 $57,759
          Commerce
    Southern Pacific Bank    2C 2C 3C             3C         2/7/03                 $63,445
Sources: Division of Finance (DOF) and FDIC Closings and Assistance Transactions report. Loss to insurance
funds is final loss or DOF estimate as of December 31, 2005.
* Although this institution was not supervised by the FDIC, the FDIC OIG was asked by the Senate Committee on
Banking, Housing, and Urban Affairs to prepare an analysis of the institution’s failure, applying the same objective
as a material loss review.

For three of the failures (Pacific Thrift and Loan Company; Superior Bank, FSB; and Southern
Pacific Bank), Capital Group ratings tended to lag behind Supervisory Subgroup ratings, even
though there were long-standing supervisory concerns about capital adequacy at the
institutions.11 This reflects a disconnect between Capital Group assignments of 1 and 2, which
indicated either a well or adequately capitalized institution, and safety and soundness
examination ratings that indicated less than satisfactory capital levels. Further, in the remaining
two institutions (BestBank and Connecticut Bank of Commerce), alleged fraud was a factor in
the institutions’ failures, so their financial reports may not have been reliable for assigning
Capital Groups for assessment purposes. These cases illustrate that, in certain circumstances,
supervisory judgment may be beneficial in assigning Capital Groups in RRPS.

Conclusion

Capital Group assignments do not reflect the results of examinations of financial institutions by
the primary federal regulators and other information relevant to the institutions’ financial
condition. As a result, based on Part 327 requirements, it is possible for an institution to be
placed in Capital Group 1, even though capital may be rated 4 or 5 for safety and soundness
examination purposes. Some institutions with the worst capital ratings can be placed into the
best Capital Group based solely on capital ratios from financial reports, without consideration of
other pertinent factors, such as written enforcement agreements; asset quality problems; poor
earnings performance; ineffective management practices relative to the institution’s size,
complexity, and risk profile; and possible errors or fraud in financial reporting. Although strictly
applying capital ratios to Capital Group assignments works well for most institutions, the capital
ratios for some institutions may be inadequate for determining assessment rates.




11
 In the 3 years prior to failure, these three institutions received composite and capital component ratings of 3 or
worse from the FDIC.


                                                          9
RECOMMENDATION

We recommend the Director, DIR:

(1) Pursue revisions to Part 327 and related implementing procedures to permit Capital Group
    adjustments during the RRPS process when capital is considered impaired based on
    CAMELS ratings and related supervisory concerns.


CORPORATION COMMENTS AND OIG EVALUATION

Based on a January 18, 2006 meeting with DSC and DIR management, we made some revisions
to the report in relation to events subsequent to an RRPS cutoff date. On January 30, 2006, the
Directors, DSC and DIR, provided a written response to the draft report, which is presented in its
entirety in Appendix VI of this report. DIR concurred in part with recommendation 1 and
offered an alternative action. DIR stated that the Board’s decision to use both subjective factors
(CAMELS composite ratings) and objective factors (capital ratios) when it created the
assessment risk categories was correct. DIR also stated that the current system already takes into
account particular capital requirements that bank regulators may impose. DIR explained that an
institution that meets the requirements to be considered well capitalized for assessment purposes
but fails to meet special capital requirements imposed by its primary federal regulator, will, in
most cases, receive a lower CAMELS composite rating than it otherwise would.

As an alternative action, DIR is considering improvements to the assessment system that would
reflect changes in an institution’s capital levels and CAMELS composite ratings more frequently
than semiannually. DIR plans to present these improvements to the Board in conjunction with
changes pursuant to deposit insurance reform legislation or consider similar changes by year-end
2006.

DIR’s proposed alternative action could reduce the number of institutions with disparities
between their capital categories and the supervisory assessment of capital adequacy. However,
instances may still occur where an institution is considered well capitalized for RRPS when the
supervisory assessment is that capital is deficient. To address these situations, a change in the
assessment regulations may still be warranted that would provide the FDIC with the discretion to
reclassify an institution’s Capital Group for RRPS purposes in those instances in which capital is
impaired. Therefore, we are highlighting this matter for the Board’s consideration as it implements
changes to the assessment system pursuant to deposit insurance reform legislation. The
recommendation, which we consider resolved, will remain open for reporting purposes until we
have determined that the agreed-to corrective action has been completed and is effective.




                                                10
FINDING C: SUPPORTING ANALYSIS FOR MATRIX BASIS POINTS

Although DIR has performed analyses related to various aspects of deposit insurance, the
division has not updated its analysis that specifically supports the basis points assigned to the
risk classifications in the RRPS matrix. The analysis was limited to bank failures over a 5-year
period, from 1988 to 1992 and did not include thrift failures because of significant changes in the
supervision of the thrift industry as a result of the savings and loan crisis. Since that time, the
banking and supervisory environment has changed significantly, including the establishment of
PCA requirements by FDICIA. Consequently, the assessment rates for the BIF and SAIF may
not be representative of trends based on more recent institution failures.

Statutes and Regulations Related to the Risk-based Assessment System

Section 302(a) of FDICIA required the Board to establish a risk-based assessment system. The
risk-based assessment schedules adopted by the Board separately for BIF- and SAIF-insured
deposits have been expressed in terms of basis points charged against adjusted total deposits.

The first rate schedule the Board established in accordance with FDICIA ranged from 23 to 31
basis points (see Appendix II). The current assessment rate schedule (Table 4) ranges from 0 to
27 basis points. This same rate schedule has been applied for insurance premiums since 1996 for
the BIF and since 1997 for the SAIF.

      Table 4: Rate Schedule for the January 1, 2005 Assessment Period
       Capital Group               Supervisory Subgroup
                                   A                 B               C
       1. Well Capitalized         0 bp              3 bp            17 bp
       2. Adequately Capitalized   3 bp              10 bp           24 bp
       3. Undercapitalized         10 bp             24 bp           27 bp
      Source: DIR’s November 15, 2004 memorandums to the Board addressing BIF and SAIF assessment
      rates for the first semiannual assessment period of 2005.

In setting assessment rates for each deposit insurance fund, the Board considers:

  •   the probability and likely amount of loss to the fund posed by individual insured
      institutions;
  •   the statutory requirement to maintain the fund at the designated reserve ratio of 1.25
      percent; and
  •   other relevant statutory provisions, such as:
      • case resolution expenditures and income,
      • expected operating expenses,
      • revenue needs of the fund, and
      • effect of assessments on the earnings and capital of fund members.


Generally, the FDIC may alter the existing rate structure and change the base BIF and SAIF
assessment rates only by rulemaking with notice and comment. However, the Board has



                                                   11
determined that it has authority to increase or decrease the effective rate schedule uniformly up
to a maximum of 5 basis points to maintain the target designated reserve ratio without notice and
comment.

DIR’s Supporting Analysis for Assessment Rates

The FDIC has issued various papers related to deposit insurance. One study focused on merging
the insurance funds, eliminating the designated reserve ratio as a trigger for charging premiums,
and indexing insurance coverage. Another paper discussed pricing risk, funding insurance
losses, and coverage levels. Other papers prepared by DIR have discussed deposit insurance
pricing options, such as estimating actuarially-fair premiums and evaluating the existing FDIC
risk-related premiums, both in absolute terms and as a ranking of relative risk, and an alternative
moving-average approach to the current assessment policy.

Additionally, DIR conducts and presents an analysis to the Board for BIF and SAIF assessment
rates for each semiannual assessment period. DIR reviews each fund’s reserve ratio to determine
if the assessment rates should be adjusted and evaluates three significant factors related to the
funds:

       •   impact of probable insurance losses (primarily failed institutions),
       •   amount of interest income for the semiannual period, and
       •   unrealized gains and losses on available-for-sale securities for the semiannual period.

However, DIR’s supporting analysis for assessment rates has not considered the impact of
significant changes in institution failures and in supervision and regulation after 1992.

We reviewed the Board cases for proposed assessments for BIF-insured institutions for the first
semiannual period of 2003 through the second semiannual period of 2005 for changes in DIR’s
methodology or comments, analysis performed, and general statements supporting the
assessment rates. The section of each Board case presenting proposed assessment rates
contained the statement, “The current rate spreads also generally are consistent with the
historical variation in bank failure rates across cells of the assessment rate matrix.” In response
to our inquiry about the basis for this statement, DIR provided a 1994 article from the FDIC
Banking Review, which analyzed bank failure rates from January 1, 1988 through December 31,
1992.12 However, in the November 2005 Board cases for the first semiannual period of 2006,
DIR removed the reference to “the historical variation in bank failure rates.” Notwithstanding, it
would be prudent for DIR to update the analysis for the Board’s consideration in determining the
appropriateness of continuing with the same assessment rates.




12
  The article is entitled, Risk Measurement, Actuarially-Fair Deposit Insurance Premiums and the FDIC’s Risk-
Related Premium System. This analysis did not include insured thrifts.


                                                       12
Changes in Institution Failure Rates and Supervision

During the 5-year period covered by DIR’s initial analysis – January 1, 1988 through
December 31, 1992 – there were 1,838 bank and thrift failures. In contrast, the FDIC reported a
total of 55 failures during the 10-year period from January 1, 1995 through December 31, 2004,
which represents a significant decrease.

The implementation of FDICIA prompted significant differences in supervision and regulation
that may have contributed to fewer bank failures. Since taking effect December 19, 1992,
FDICIA, Section 111, has required the appropriate federal banking agency to conduct a full-
scope, on-site examination of each insured depository institution, at least once during each 12- or
18-month period. FDICIA also empowered the regulators in monitoring and restraining risky
activities of institutions. Specifically, FDICIA, Section 131, required each banking agency and
the FDIC to take prompt corrective action to resolve the problems of insured depository
institutions and established new capital categories and FDICIA, Section 132, required the federal
banking agencies to set standards for safety and soundness applicable to all insured institutions
and their holding companies. FDICIA, Section 141, has required the FDIC to pursue a least-cost
resolution approach to bank failures. FDICIA, Section 302, also authorized the FDIC to
establish a risk-based assessment system for insured institutions.

In a paper entitled, Costs Associated With Bank Failures, dated October 10, 2003, the Division
of Resolutions and Receiverships (DRR) addressed how the FDIC handles financial institution
failures and provided an overview of the costs associated with failing institutions, focusing on
the 34 institutions that failed between 1997 and 2002. DRR’s concluding observations made the
following points—relevant to our finding—that the analysis supporting the assessment rates
should be updated:

•    The failure of a financial institution always results in losses to at least some stakeholders.
     This aspect of failures has not changed. What has changed, however, is a reversal of the
     distribution of these losses, by size, of the failed institution. In the past, smaller failures
     resulted in disproportionately larger losses to stakeholders. More recently, losses on larger
     failures increased substantially, while the average loss rate in small failures has fallen. The
     increased loss rate among larger institutions can be explained by the disproportionate number
     of subprime lenders in this group, some of which were involved in fraudulent transactions.

•    The loss rates for smaller financial institution failures—those with total assets under $100
     million—were considerably lower compared to financial institutions that failed during the
     1980s and early 1990s. In addition, a greater proportion of financial institution failures
     resulted in no loss to the FDIC. Of the 34 failures in this study, 2 (6 percent ) are actual no-
     cost failures to the FDIC. This compares to a no-cost failure rate of just 1.5 percent from
     1986 to 1992.13

•    The lower loss rate among smaller failures may be a trend that continues. The economic
     environment was more forgiving during the late 1990s compared to the 1980s and early

13
  Excluded from these no-cost failures were banks that failed due to the exercise of the FDIC’s cross-guarantee
authority.


                                                        13
    1990s. While recent economic growth has been sluggish, the likelihood of a 1980s-style
    recession appears low for the foreseeable future. Further, the franchise value of financial
    institutions improved substantially during the 1990s, and the outlook continues to be robust
    for institutions with a core deposit franchise.

•   The lower loss rates among the smaller failures also may be the result of PCA measures
    where the resolution process begins when a financial institution’s equity reaches 2 percent, as
    opposed to 0 percent prior to 1991. Prompt corrective action measures are more effective in
    smaller institutions where there are not significant asset valuation issues (except in cases of
    major fraud), which cloud a bank’s true capital position. Earlier closure results in lower
    losses. The FDIC is afforded more time to resolve the institutions, so more assets can be
    passed to the acquirer, and there is a greater opportunity to obtain a higher premium.
    Additionally, current asset sales practices impact failure costs. Specifically, the FDIC’s
    practice of aggressively marketing and selling assets at market value at the time of failure has
    substantially reduced overhead and administrative costs, resulting in a more efficient
    resolution process.

Conclusion

DIR’s supporting analysis for assessment ratios relies on data that is 13 years old and may no
longer accurately reflect the probability and extent of insurance loss and other factors the Board
considers in setting assessment rates. Institution failures decreased substantially after 1992, and
the FDIC and the other banking regulators have made numerous improvements in their
supervisory regimen in recent years, some in response to statutory and regulatory changes,
particularly those brought about by FDICIA. Thus, institution failures that occurred after
relevant sections of FDICIA took effect in December 1992 may be more representative for
developing an analysis to support the range of basis points in the assessment rate matrix.
Further, with the passage of deposit insurance reform by the Congress, DIR should reassess the
deposit insurance rate structure contained in the current RRPS matrix. Finally, we offer no
opinion on whether rates should be increased, decreased, or held constant.


RECOMMENDATIONS

We recommend the Director, DIR:

(2) Update the analysis supporting the basis point rate spreads applied to the assessment rate
    matrix for the deposit insurance funds.

(3) Present the updated analysis as part of the assessment rate cases to the Board with
    recommendations for assessment rates for financial institutions based on their assessment
    risk classification.

(4) Establish a schedule for periodically updating the assessment rate analysis and reassessing
    the basis point spreads and assessment rates, as needed.




                                                14
CORPORATION COMMENTS AND OIG EVALUATION

DIR concurred in part with recommendations 2 and 3 and offered an alternative action to
recommendation 4. The following summarizes management’s written response to these
recommendations, which is presented in its entirety in Appendix VI of this report. DIR stated
that it has been examining a possible update to assessment rates but has not recommended that
the Board change the rates due to legal and practical limitations on DIR’s ability to construct a
rate schedule that is always actuarially accurate. DIR stated that the benefits of changing
assessment rates were outweighed by the costs and potential risks due to the following:

   •   The Deposit Insurance Funds Act of 1996 prevents the FDIC from charging an institution
       in the 1A risk category for deposit insurance so long as the institution’s deposit insurance
       fund is at or above the designated reserve ratio and is expected to remain so. Since 1995,
       at least 90 percent of institutions have been in this category, and presently, 94 percent of
       institutions are in this category.
   •   The assessment schedule in place over the last 10 years has continued to fulfill the
       purposes intended by the Board. Riskier institutions pay more for their deposit insurance
       coverage, and the reserve ratios have remained at or above target levels.
   •   During the past 5 years, the FDIC has focused on a broader set of deposit insurance
       reform recommendations.
   •   The relatively few failures in the years since the current rate schedule has been in place
       have provided little new information to re-evaluate the spreads between rates in the
       assessment matrix.
   •   During approximately the past 10 years, only 6 to 10 percent of institutions have paid
       deposit insurance assessments at any time.

DIR will propose to the Board substantial revisions to the assessment system as part of deposit
insurance reform implementation. DIR’s goal will be to recommend assessment rates that better
reflect differences in risk among FDIC-insured institutions and are most likely to keep the fund’s
reserve ratio within the range contemplated by legislation.

Regarding recommendation 4, DIR stated that it would be premature to establish a schedule for
periodically updating the assessment rate analysis and reassessing the basis point spreads and
assessment rates. DIR proposed that considerations of the frequency of rate updates await initial
implementation of assessment system changes pursuant to reform legislation. DIR stated that
much will depend on the outcome to the initial changes and the manner in which the Board
wants to evaluate their effectiveness. Further, DIR indicated that the success of the new system
in keeping within the statutory range for the reserve ratio will also play a role in determining the
frequency of assessment rate updates.

These recommendations are resolved but will remain open for reporting purposes until we have
determined that the agreed-to corrective actions have been completed and are effective.




                                                 15
                                                                                   APPENDIX I


                        OBJECTIVE, SCOPE, AND METHODOLOGY

The audit objective was to determine whether the RRPS is adequately tied to the results of
examinations of institutions by the primary federal regulators and to other information relevant
to the institutions’ financial condition. We performed our field work at DSC and DIR
headquarters and at selected DSC regional offices from March through October 2005 in
accordance with generally accepted government auditing standards.

Management Controls

To accomplish the audit objective and gain an understanding of the applicable control
environment, we did the following:

•   Reviewed applicable laws and FDIC Rules and Regulations.

•   Reviewed the FDIC’s Circular 4700.1, Financial Institution Letters, and other documentation
    pertaining to the insurance assessment process.

•   Evaluated applicable policies and procedures in DSC’s Risk Management Manual of
    Examination Policies and Case Manager Procedures Manual.

•   Interviewed DSC, DIR, DIT, and DOF officials in headquarters, regional, and field offices.

•   Reviewed the FDIC’s established performance goals and objectives related to insurance
    premiums.

•   Reviewed previous Government Accountability Office reports, testimonies, and responses to
    the Congress related to deposit insurance system reform after the Financial Institutions
    Reform, Recovery, and Enforcement Act of 1989.

•   Reviewed and analyzed DSC reports in the Virtual Supervisory Information on the Net
    (ViSION) System and related information from RRPS.

•   Selected a judgmental sample of FDIC-insured financial institutions from each of the FDIC
    regional offices to test information in RRPS.

•   Selected a judgmental sample of banks to determine if weaknesses were noted that should have
    been factored into the insurance premium assessment rating. Reviewed ROEs, problem bank
    memorandums, bank correspondence files maintained by case managers, and bank rating
    change memorandums.

•   Reviewed DOF’s and DIR’s documentation as to the history of the BIF and SAIF funds as of
    2005.



                                                16
                                                                                  APPENDIX I

•   Analyzed samples of FDIC-insured financial institutions by risk classifications for selected
    field/regional offices to test risk assignment and premiums assessed based upon CAMELS and
    composite ratings and capital ratios.

•   Reviewed various studies and analyses on bank failures since the 1980s.

•   Reviewed the former FDIC Chairman’s proposals to the Congress for deposit insurance reform
    related to proposals that would change assessments of insurance premiums.

•   Obtained documentation of the progress of deposit insurance reform in the Congress.

Pertinent Laws and Regulations and Consideration of Potential Fraud and Illegal Acts

We gained an understanding of relevant laws and regulations and evaluated the FDIC's
implementation of procedures applicable to deposit insurance assessments and RRPS. These
included the following:

     •   Federal Deposit Insurance Act – Section 7;

     •   FDICIA, Section 302;

     •   FDIC Rules and Regulations, Part 325, Capital Maintenance, which also incorporates,
         Subpart A – Minimum Capital Requirements and Subpart B – Prompt Corrective Action;
         and

     •   FDIC Rules and Regulations, Part 327, Assessments.

We did not identify any instances of noncompliance with applicable laws and regulations, and
throughout our audit, we were alert to the potential for fraud, waste, abuse, and mismanagement.

Computer-based Data

We used computer-based data from ViSION and, particularly, the RRPS and Supervisory
Tracking and Reporting Modules to apply the RRPS criteria to supervisory examinations
conducted by the various regulatory agencies from January 2004 through January 2005. We also
used computer-based data as a supplemental source of information in conjunction with
supporting documents and in generating a universe of examinations from which to select our
sample. Although we did not perform assessments of computer-based data, no discrepancies
between computer-based data and supporting documentation came to our attention during the
audit. Additionally, the OIG performed an audit to determine whether the RRPS application
provides the appropriate level of confidentiality, integrity, and availability through the use of
effective management, operational, and technical controls. Final Audit Report
No. 05-037, Controls Over the Risk-Related Premium System, dated September 23, 2005,
presents the results of that audit.



                                                17
                                                                                  APPENDIX I

Government Performance and Results Act

We found that the FDIC has established performance measures related to the RRPS. The FDIC's
2005 performance plan outlines goals and objectives relating to deposit insurance reform and
maintaining a sound deposit insurance system as follows:

   •   identify and address risks to the insurance funds,
   •   maintain viable insurance funds, and
   •   improve and update information technology related to RRPS.

Our audit focused on matters for identifying and addressing risks to the insurance funds.
We did not identify any proposals that might directly affect the RRPS; however, deposit
insurance reform may provide the FDIC with greater flexibility for determining the basis points
charged to institutions for deposit insurance coverage.




                                               18
                                                                                     APPENDIX II

                   ADOPTION OF THE RISK ASSESSMENT MATRIX

The following is an excerpt from the October 1, 1992 Federal Register, describing the Board’s
rationale in adopting a multi-tiered matrix for determining assessment risk classifications.

       The Board believed that the ongoing supervisory monitoring process produced more and
       better information concerning an institution's risk exposure than can be obtained solely
       from financial reports. A risk measurement system that relies solely on data obtained
       from Reports of Income and Condition or Thrift Financial Reports would not adequately
       capture important risk factors, such as loan underwriting standards, management quality,
       or other operational elements that can substantially affect the FDIC's risk exposure.
       Accordingly, the Board believed that a risk-based insurance system in which supervisory
       factors played an important role would lead to less inequity in the pricing of risk than one
       based exclusively, or almost exclusively, on reported financial data.

       The Board also recognized the value of objective measures. An attribute of a risk-based
       premium system is to give weak institutions an incentive for improving their condition.
       The Board decided that this incentive would be provided by a system that bases
       premiums, in part, on the institutions' capital ratios as derived from data on their financial
       reports. By meeting specific capital-ratio standards, weak institutions would be able to
       reduce their deposit insurance premiums. Greater capital increases the cushion against
       loss, both for the institution and for the FDIC, and increases the owners' stake in a sound
       operation. Thus, the Board believed that capital ratios should play an important role in a
       risk-based premium system.

       On September 15, 1992, the Board adopted final rules on the risk-based assessment
       system and PCA. The Board decided to incorporate the PCA capital-ratio standards for
       “well capitalized” and “adequately capitalized” into the final rule for the assessment
       system. For purposes of assigning capital categories, risk-based ratios would be
       estimated by the FDIC using the method agreed upon by the Federal Financial
       Institutions Examination Council [FFIEC].

The Board initially established an eight basis-point spread between the highest and lowest
premium rates, realizing that the spread did not adequately reflect the difference in risk to the
insurance funds between the weakest and strongest institutions. However, the Board believed
that a relatively modest rate spread was appropriate at the time the spread was established.
Widening the spread beyond eight basis points to maintain adequate assessment revenue would
have required that the highest premium rates be very high. The Board was concerned that
imposing even greater rate increases for weaker institutions could, at the early stage in the
development of a risk-based assessment system, cause a degree of disruption and hardship for
such institutions. The initial risk-based assessment schedule adopted by the Board separately for
BIF and SAIF member institutions, expressed in terms of basis points assessed against deposits,
is in Table 5.




                                                19
                                                                                   APPENDIX II

       Table 5: Rate Schedule for the January 1, 1993 Assessment Period
         Capital Group                Supervisory Subgroup
                                      A             B              C
        1. Well Capitalized           23 bp         26 bp          29 bp
        2. Adequately Capitalized     26 bp         29 bp          30 bp
        3. Undercapitalized           29 bp         30 bp          31 bp
          Source: FDIC Rules and Regulations, Section 327.9(b)(3)(ii).

The Board subsequently approved the current rate schedule as shown earlier in Table 4. That
rate structure has been in effect since January 1, 1996 for the BIF and since January 1, 1997 for
the SAIF, omitting a premium for any institution in group 1A.




                                                     20
                                                                                    APPENDIX III

                            ASSESSMENT RISK CLASSIFICATION

The FDIC uses a risk-based insurance premium system that assesses higher rates on those
institutions deemed to pose greater risks to the BIF or SAIF. To assess premiums on institutions,
the FDIC places each institution into one of nine assessment risk classifications semiannually,
using a two-step classification process involving the Capital Group and Supervisory Subgroup
assignments. Capital Group assignments are based on the capital ratios from the institution’s
financial reports. Supervisory Subgroup assignments are based on the institution’s most recent
ROE and any other information relevant to the institution’s financial condition and risk posed to
the funds.

Step 1 – Capital Group Assignment

Capital Group assignments are made in accordance with Section 327.4(a)(1) of the FDIC Rules
and Regulations, using the method agreed upon by the FFIEC for calculating capital ratios.
Institutions are assigned to one of three Capital Groups on the basis of data in an institution's
financial reports as of the preceding September 30 for the January 1 to June 30 semiannual
period and the preceding March 31 for the July 1 to December 31 semiannual period. No
changes to capital ratios are considered except for amendments to the financial reports during the
reconcilement process or when an institution appeals its assessment.

FDICIA established FDI Act Section 38, Prompt Corrective Action, which requires federal
regulators to place financial institutions into one of five categories on the basis of their capital
levels. The five capital categories are well capitalized, adequately capitalized, undercapitalized,
significantly undercapitalized, and critically undercapitalized. The Board adopted the capital
levels from these categories and applied “well capitalized” as Capital Group 1, “adequately
capitalized” as Capital Group 2, and the remaining three categories as Capital Group 3 in the
matrix for risk-based assessments (see Table 6).

   Table 6: Capital Group Descriptions
                             Total Risk-Based               Tier 1 Risk-Based   Tier 1 Leverage
   Capital Group             Capital Ratio                  Capital Ratio       Capital Ratio
   1. Well Capitalized       = or > 10%                     = or > 6%           = or > 5%
   2. Adequately Capitalized = or > 8%                      = or > 4%           = or > 4%
                             Not qualified in               Not qualified in    Not qualified in
   3. Undercapitalized       Group 1 or 2                   Group 1 or 2        Group 1 or 2
  Source: FDIC Rules and Regulations, Section 327.4.




                                                       21
                                                                                                  APPENDIX III

Well Capitalized—The well capitalized risk category (or group 1) consists of institutions
satisfying each of the capital ratio standards set forth for group 1 in Table 6.14

Adequately Capitalized—The adequately capitalized risk category (or group 2) consists of
institutions that do not satisfy the standards of "well capitalized" but satisfy each of the capital
ratio standards set forth for group 2 in Table 6.15

Undercapitalized—The undercapitalized risk category (or group 3) consists of institutions that
do not qualify as either "well capitalized" or "adequately capitalized."

Step 2 – Supervisory Subgroup Assignment

Supervisory Subgroup assignments for insured institutions are made in accordance with Section
327.4(a)(2) of the FDIC Rules and Regulations, which states:

         Each institution will be assigned to one of three subgroups based on the Corporation's
         consideration of supervisory evaluations provided by the institution's primary federal
         regulator. The supervisory evaluations include the results of examination findings by the
         primary federal regulator, as well as other information the primary federal regulator
         determines to be relevant. In addition, the Corporation will take into consideration such
         other information (such as state examination findings, if appropriate) as it determines to
         be relevant to the institution's financial condition and the risk posed to the BIF or SAIF.

The three Supervisory Subgroups, described in Table 7, are generally based on safety and
soundness composite ratings but include consideration of other pertinent factors. The RRPS
assigns a preliminary Supervisory Subgroup based on the most recent ROE safety and soundness
composite rating as of the supervisory cutoff date for the semiannual assessment period,
regardless of when the corresponding ROEs are received by the FDIC. However, an institution’s
condition can change subsequent to the safety and soundness rating assignment. Thus, the FDIC
reviews and revises, as needed, the assignments of BIF or SAIF institutions to a Supervisory




14
   New insured depository institutions coming into existence after the insurance assessment report date specified are
included in this group for the first semiannual period for which the institutions are required to pay assessments. For
purposes of assessment risk classification, an insured branch of a foreign bank is deemed to be “well capitalized” if
the insured branch: (1) maintains the pledge of assets required and (2) maintains the eligible assets prescribed at 108
percent or more of the average book value of the insured branch's third-party liabilities for the quarter ending on the
report date specified.
15
   For purposes of assessment risk classification, an insured branch of a foreign bank is deemed to be “adequately
capitalized” if the insured branch: (1) maintains the pledge of assets required, (2) maintains the eligible assets
prescribed at 106 percent or more of the average book value of the insured branch's third-party liabilities for the
quarter ending on the report date specified, and (3) does not meet the definition of a “well capitalized,” insured
branch of a foreign bank.



                                                         22
                                                                                           APPENDIX III

Subgroup for each semiannual assessment period based on a variety of factors. These include an
FDIC review of the:

   •   results of the last examination finalized and transmitted by the primary regulator to an
       institution prior to the supervisory cutoff date;
   •   other written findings that result in a composite rating change by the primary regulator;
   •   results of independent, joint, or concurrent FDIC examinations finalized prior to the
       supervisory cutoff date; time elapsed since the last examination; and
   •   results of off-site statistical analyses of reported financial statements or analyses of other
       pertinent information.

 Table 7: Supervisory Subgroup Descriptions
  Subgroup Composite Rating        Description
                                   Financially sound institutions with few minor
  A          1 or 2                weaknesses.
                                   Weaknesses, if not corrected, could result in
                                   significant deterioration of institution and increased
                                   risk of loss to BIF/SAIF. May include formal or
  B          3                     informal enforcement action.
                                   Pose substantial probability of loss to BIF/SAIF.
  C          4 or 5                Formal enforcement action may be necessary.
       Sources: FDIC Rules and Regulations, Section 327.4(a)(2), for subgroup and description and the FDIC
       Statement of Policy for composite rating and description.




                                                    23
                                                                             APPENDIX IV

           CHRONOLOGY OF SIGNIFICANT EVENTS FOR INSTITUTIONS

                                       Institution 1
DATE                 EVENT
September 23, 2003   Cease and Desist Order required Tier 1 capital to equal or exceed 7.5
                     percent of a bank’s total assets.
September 30, 2003   Call Report of September 30, 2003 needed amending for $4.1 million in
ROE                  unused loan commitments, brokered deposits, and provision to the
                     ALLL. Bank was in undercapitalized category for PCA. Management
                     reports overstated Tier 1 Leverage Capital at 7.18 percent because
                     deferred tax assets were not properly deducted. Tier 1 was 4.41 percent
                     after replenishing the ALLL. The ROE stated, “Capital is deficient in
                     light of the institution's risk profile threatening its viability.” Asset
                     quality was unsatisfactory, and lending practices were deficient.
                     Earnings were poor and continued to decline. The bank needed a
                     $1 million capital injection. Bank management and the bank’s board of
                     directors failed to address deficiencies.
March 31, 2004       After adjustments for ALLL, legal settlement, and other assets were
ROE                  classified as a loss, Tier 1 capital was $(0.5) million. As of March 31,
                     2004, Tier 1 capital was 3.52 percent before examination adjustments.
                     The high level and severity of assets subjected to adverse classification
                     reflects a high exposure to loss within the portfolio. Bank earnings
                     declined due to overhead and ALLL provisions. The bank’s board of
                     directors and management failed to address prior ROE deficiencies.
May 2004             State of Florida and Federal Reserve Bank approve acquisition of the
                     bank.
September 30, 2004   Supervisory cutoff date for RRPS. DSC began review in October 2004.
April 27, 2005       DSC reported improved CAMELS ratings and stated, “significant
                     improvement in bank’s overall financial condition.” Capital injections
                     totaling $4.8 million provided by acquirer increased the Tier 1 leverage
                     capital ratio to 17.35 percent as of September 30, 2004. Asset quality
                     improved. Earnings were negative due to loan losses but were forecasted
                     to be positive in 2005.




                                            24
                                                                               APPENDIX IV

                                       Institution 2
DATE                 EVENT
October 16, 2002     FDIC and state banking department Cease and Desist Orders
                     required Tier 1 capital to equal or exceed 8 percent of the bank’s
                     total assets as of December 31, 2002.
June 30, 2003 ROE    The ROE stated, “Capital is unsatisfactory in relation to the
                     institution’s risk profile. Critical deficiencies in management,
                     asset quality and earnings are a constant drain on the capital
                     account, and the current capital level cannot support the myriad
                     of risk exposures that … bank faces; risks such as credit,
                     operational, legal, reputation, and liquidity.” Loan losses, legal
                     and settlement fees, and ALLL provisions eliminated a $3 million
                     capital injection made December 2002. Capital ratios calculated
                     in the ROE consider the provision to ALLL, and assets and loans
                     were classified as a loss. Ratios at ROE date were: Tier I
                     Leverage Capital - 7.00, Tier 1 Risk-based Capital - 10.25, and
                     Total Risk-based Capital - 11.53. Bank’s financial condition due
                     to the bank’s board of directors’ negligence and former
                     president’s dominance. The bank’s president participated in
                     criminal activities, conflicts of interest, and breach of fiduciary
                     duty. The president’s lending relations contributed to large loan
                     losses. Asset quality threatened the bank’s viability due to
                     excessive adverse classification and past due loans. ALLL was
                     inadequate by $500,000, and ALLL methodology was not in
                     compliance with FDIC Rules and Regulations.
April 2004           FDIC and the state banking department issued additional formal
                     enforcement actions to address weakness not covered in their
                     2002 Cease and Desist Orders.
September 30, 2004   Supervisory cutoff date for RRPS. DSC began review in October
                     2004.
December 2004        Corrected unsafe lending practices. Resolved asset quality
                     problems and normalized legal expenses. Continued operating
                     losses. Capital level is less than satisfactory even though owners
                     contributed more than $6.2 million since last examination.




                                             25
                                                                                APPENDIX IV

                                        Institution 3
DATE                 EVENT
June 30, 2003 ROE    The ROE stated, “Capital is critically inadequate. The hazardous
                     actions of former management have caused the distressed
                     financial condition of the institution. Unsatisfactory asset quality
                     has caused a substantial operating loss that has eroded capital.”
                     Underfunded ALLL and losses in other assets reduced Tier 1
                     Leverage Capital Ratio to 1.08 percent. Erosion in asset quality
                     was abrupt and severe. ALLL with $8.7 million at June 30, 2003
                     was reduced to ($318,000). Inadequate board of directors
                     oversight contributed to the bank’s financial problems.
                     Hazardous lending practices for the former president/chief
                     executive officer contributed to the depleted capital. The holding
                     company injected $3.5 million in July effective June 30, 2003
                     with two additional or $1 million each in August and October
                     2003. Capital ratios for June 30, 2003 revised: Tier 1 leverage
                     was 1.08, Tier 1 capital was 1.78, and total capital was 3.12.
January 1, 2004      Cease and Desist Order required bank to have and maintain Tier 1
                     capital equal to exceeding 8.0 percent of the bank’s total assets by
                     December 31, 2004.
March 31, 2004       The ROE stated that continuous asset quality problems and
ROE                  operational losses necessitated continued financial assistance
                     from the bank’s parent holding company. Holding company
                     injections totaled $9.064 million in 2003 and increased the
                     December 31, 2003 Tier 1 capital ratio to 5.11 percent. The
                     holding company injected $875,000 in 2004 that increased Tier 1
                     to 8.35 percent on June 30, 2004. The ROE stated, “Despite the
                     increased Tier 1 capital Ratio, capital levels are deficient in
                     relation to the bank’s current risk profile. [The holding
                     company’s] “financial condition is weak … from the losses
                     associated with the subject bank.”
September 30, 2004   Supervisory cutoff date for RRPS. DSC began review in October
                     2004.




                                             26
                                                                        APPENDIX V

                              GLOSSARY

TERM            DEFINITION
CAMELS          Defined in an FDIC Statement of Policy, CAMELS (an acronym for
Component and   capital, asset quality, management, earnings, liquidity, and sensitivity
Composite       to market risk) represents the six individual component ratings
Ratings         assigned by a bank’s safety and soundness examination and the
                overall rating based on an assessment of these components. A
                composite rating of 1 through 5 is given, with 1 having the least
                regulatory concern and 5 having the greatest concern. The composite
                ratings are described as follows:

                Rating 1: Financial institutions are sound in every respect.
                They exhibit the strongest performance and risk management
                practices. They give no cause for supervisory concern.

                Rating 2: Financial institutions are fundamentally sound.
                There are only moderate weaknesses. These financial
                institutions are in substantial compliance with laws and
                regulations. There are no material supervisory concerns, and
                the supervisory response is informal and limited.

                Rating 3: Financial institutions exhibit some degree of
                supervisory concern in one or more of the component areas.
                They exhibit a combination of weaknesses that may range
                from moderate to severe. Risk management practices may be
                less than satisfactory. Failure appears unlikely.

                Rating 4: Financial institutions generally exhibit unsafe and
                unsound practices or conditions. Failure is a distinct
                possibility if the problems and weaknesses are not
                satisfactorily addressed and resolved.

                Rating 5: Financial institutions exhibit extremely unsafe and
                unsound practices or conditions and exhibit a critically
                deficient performance. They are of the greatest supervisory
                concern. Immediate outside financial or other assistance is
                needed in order for the financial institution to be viable.
                Ongoing supervisory attention is necessary. Institutions pose
                a significant risk to the deposit insurance fund, and failure is
                highly probable.




                                    27
                                                                          APPENDIX V

TERM               DEFINITION
Capital Group      DIR’s Pricing Section determines the institution’s Capital
Assignments        Group assignment. Capital Group assignments are made in
                   accordance with section 327.4(a)(1) of the FDIC Rules and
                   Regulations, using the method agreed upon by the FFIEC for
                   calculating capital ratios.
FDIC Circular      Circular conveys DSC’s RRPS procedures. It addresses
4700.1             regional office responsibilities for review of RRPS
October 14, 2005   Supervisory Subgroup assignments, Call Report
                   amendments, and financial institutions’ request for review of
                   subgroup assignments.

FFIEC              The FFIEC is a formal interagency body empowered to
                   prescribe uniform principles, standards, and report forms for
                   the federal examination of financial institutions by the Board
                   of Governors of the Federal Reserve System, the FDIC, the
                   National Credit Union Administration, the OCC, and the
                   OTS and to make recommendations to promote uniformity in
                   the supervision of financial institutions.

Risk-Based         FDICIA defines a risk-based assessment system as a system
Assessment         for calculating an institution’s semiannual assessment based
System             on the probability that the institution would cause a loss to
                   the deposit insurance funds, considering the risks posed by
                   asset and liability concentration, and other factors set by the
                   Board, the likely amount of such loss, and the revenue needs
                   of the fund.

Risk Related       Menu-driven system in the FDIC’s mainframe that involves
Premium System     the semiannual assignment of insured institutions to one of
(RRPS)             three Capital Groups and to one of three Supervisory
                   Subgroups for insurance assessment purposes.

Supervisory        Supervisory Subgroup assignments are made in accordance
Subgroup           with section 327.4(a)(2) of the FDIC Rules and Regulations,
Assignments        which provides that each institution will be assigned to one
                   of three subgroups based on the FDIC's consideration of
                   supervisory evaluations provided by the institution's primary
                   federal regulator as well as other information the primary
                   federal regulator determines to be relevant. The FDIC
                   considers other information relevant to an institution's
                   financial condition and the risk posed to the BIF or SAIF.




                                      28
                                                                          APPENDIX V

TERM              DEFINITION
Tier 1 Leverage   Tier 1 capital divided by total assets. A definition is provided in Part
Capital Ratio     325 of the FDIC Rules and Regulations.

Tier 1 (Core)     Defined in Part 325 of the FDIC Rules and Regulations and is
Capital Ratio     the sum of:
                      • common stockholders' equity,
                      • noncumulative perpetual preferred stock, and
                      • minority interests in consolidated subsidiaries.
                  Minus:
                      • All intangible assets other than mortgage servicing assets,
                         nonmortgage servicing assets, and purchased credit card
                         relationships eligible for inclusion in core capital pursuant to
                         Section 325.5(f).
                      • Noneligible credit-enhancing interest-only strips.
                      • Deferred tax assets in excess of the limit set forth in Section
                         325.5(g).
                      • Identified losses (to the extent that Tier 1 capital would have
                         been reduced if the appropriate accounting entries to reflect
                         the identified losses had been recorded on the institution's
                         books).
                      • Investments in financial subsidiaries subject to Part 362
                         (subpart E), FDIC Rules and Regulations.
                      • The amount of the total adjusted carrying value of
                         nonfinancial equity investments subject to deduction as set
                         forth in Part 325, Appendix A.
Total Capital     FDIC Rules and Regulations Part 325 states that Total Capital
Ratio             (used in the risk-based calculation) is the sum of Tier 1
                  Capital and Tier 2 Capital, less investments in unconsolidated
                  banking and finance subsidiaries and reciprocal holdings of
                  capital instruments of other banks. The FDIC may also
                  consider deducting investments in other subsidiaries, either
                  on a case-by-case basis or, as with securities subsidiaries,
                  based on the general characteristics or functional nature of the
                  subsidiaries.




                                      29
                                                                         APPENDIX V

TERM              DEFINITION
Tier 2
(Supplementary)   Tier 2 Capital is defined in Part 325 of the FDIC Rules and
Capital           Regulations, Part 325, Appendix A., I.A.2, and generally consists of:
                      • ALLL, up to a maximum of 1.25 percent of gross risk-
                          weighted assets.
                      • Cumulative perpetual preferred stock, long-term preferred
                          stock (original maturity of at least 20 years) and any related
                          surplus.
                      • Perpetual preferred stock where the dividend is reset
                          periodically based, in whole or in part, on the bank's current
                          credit standing.
                      • Hybrid capital instruments, including mandatory convertible
                          debt.
                      • Term subordinated debt and intermediate-term preferred
                          stock (original average maturity of 5 years or more and not
                          redeemable at the option of the holder prior to maturity,
                          except with the prior approval of the FDIC).
                      • Net unrealized holding gains on equity securities, up to 45
                          percent pretax.
Virtual           ViSION is a bank-supervision tracking and reporting database that
Supervisory       contains information on all insured depository institutions. Users
Information on    rely on ViSION as a central repository for compiling, reviewing,
the Net           analyzing, and managing financial, examination, and other data on
(ViSION)          financial institutions. The ViSION user community includes FDIC
                  executives, regional managers, case managers, review examiners,
                  field examiners, DIR analysts, and federal and state regulatory
                  agencies.
Written           A written agreement is executed by authorized representatives and is
Agreement         entered into with the FDIC by an insured depository institution. The
                  agreement is enforceable by an action under section 8(a) and/or
                  section 8(b) of the FDI Act.




                                      30
Appendix VI
32
33
34
35
                                                                                                                                                APPENDIX VII

                                                MANAGEMENT RESPONSE TO RECOMMENDATIONS

     This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of
     report issuance.
                                                                                                                                                             Open
      Rec.                                                                                                Expected            Monetary      Resolved:a        or
     Number                      Corrective Action: Taken or Planned/Status                           Completion Date         Benefits      Yes or No       Closedb
                   DIR is considering improvements to the assessment system that would                December 31, 2006        None            Yes           Open
           1       reflect changes in an institution’s capital levels and CAMELS composite
                   ratings more frequently than semiannually. Improvements will be
                   presented to the Board in conjunction with changes resulting from deposit
                   insurance reform legislation.
                   DIR will propose to the Board substantial revisions to the assessment              December 31, 2006          None           Yes             Open
           2       system as part of deposit insurance reform implementation. DIR will
36




                   recommend assessment rates that better reflect differences in risk among
                   FDIC-insured institutions and are most likely to keep the insurance fund’s
                   reserve ratio within the range contemplated by legislation.
           3       See 2 above.                                                                       December 31, 2006          None           Yes             Open

           4       DIR proposed that implementation of assessment system changes,                     December 31, 2006          None           Yes             Open
                   pursuant to reform legislation, be completed before considering the
                   frequency of rate updates.
     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                   (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                   (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                       management provides an amount.
     b
         Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.
